       U.S. House of Representatives
        Committee on Ways and Means
          Subcommittee on Oversight
        Subcommittee on Social Security




            Statement for the Record

    Hearing on Identity Theft and Tax Fraud


    The Honorable Patrick P. O’Carroll, Jr.
Inspector General, Social Security Administration

                  May 8, 2012
Good morning, Chairman Johnson, Chairman Boustany, Ranking Member Becerra, Ranking
Member Lewis, and members of both Subcommittees. It is a pleasure to appear before you, and I
thank you for the invitation to testify today. I have appeared before Congress many times to
discuss issues critical to the Social Security Administration (SSA) and the services the Agency
provides to American citizens; earlier this year I testified before the Subcommittee on Social
Security at separate hearings on SSA’s Disability Insurance program and the Death Master File
(DMF).

Today, we are discussing the Social Security number (SSN) and ways to improve SSN protection
and guard against misuse, identity theft, and tax fraud. Your Subcommittees have previously
worked with SSA and the Office of the Inspector General (OIG) to address these issues, but with
SSN use widespread throughout government programs and financial transactions, and
technology constantly evolving, the threat of SSN misuse and identity theft persists. My office is
well aware of the central role that the SSN plays in American society, and part of our mission is
to maintain its integrity along with other personally identifiable information (PII) within SSA
records. To provide some context, in Fiscal Year (FY) 2011, SSA assigned about 5.4 million
original SSNs, issued 10.9 million replacement cards, and processed more than 1.4 billion SSN
verifications. The Agency also received about $660 billion in employment taxes related to
earnings. Protecting the SSN and properly posting employees’ wages is paramount to ensuring
the integrity of our personal information.

Despite our efforts as well as those of SSA and the IRS to protect this critical information, we all
remain targets for identity thieves. The Federal Trade Commission (FTC) estimates that as many
as 9 million Americans have their identities stolen each year. The number of identity theft-
related incidents on tax returns reached about 248,000 in 2010, about five times more than in
2008, according to the Government Accountability Office. We in the OIG understand the
concern your Subcommittees have for citizens and their families with regard to identity theft, and
we investigate as many SSN misuse cases as our resources allow each year. As we pursue these
criminal investigations, we have also conducted numerous audits and made recommendations to
SSA and to the Congress to improve the SSN’s security.

SSN Misuse Investigations

OIG’s primary mission is to protect SSA programs and operations, and the majority of our
investigations are related to SSA program fraud. However, our organization receives thousands
of allegations of SSN misuse each year; in FY 2011, about 14 percent of all fraud referrals
received involved SSN misuse. It is our experience that investigations into SSN misuse will
often reveal some form of identity theft. At times, they can also involve Social Security benefit
fraud and tax fraud that can lead to the recovery of significant government funds.

I would like to share with your Subcommittees some of our most recent cases involving SSN
misuse for the purpose of tax fraud:

    The OIG, the IRS Criminal Investigation Division (CID), the Treasury Inspector General
     for Tax Administration, and other agencies conducted a joint investigation of several
     individuals who misused the names and SSNs of approximately 300 residents of Puerto
                                                 1
       Rico so they could file fraudulent tax returns. This scheme caused the IRS to issue more
       than $2 million in fraudulent tax refunds. A judge sentenced three individuals to between
       3 months and 30 months in prison, and ordered them to pay restitution of nearly $230,000
       to the IRS.

    My office investigated a California woman who used fraudulent SSNs to file Federal
     income tax returns. The woman applied for and obtained more than 20 Social Security
     cards, falsely claiming she gave birth to that many children at a Los Angeles hospital in
     2002. The woman then prepared and filed fraudulent tax returns, claiming multiple
     dependent deductions for family members and friends. She recently pleaded guilty to
     theft, fraudulent use of SSNs, and preparing false tax returns. A judge sentenced her to 18
     months’ incarceration and ordered her to pay restitution of more than $302,000 to the
     IRS.

    The OIG, IRS CID, and other agencies investigated two New Jersey men who misused
     the names and SSNs of victims who used a health-service provider in the area. The men
     used the victims’ personal information to file false tax returns, improperly claiming about
     $507,000 in refunds from the IRS. The men pleaded guilty in 2011, and a judge
     sentenced them to 60 months and 120 months in prison and ordered them to pay
     restitution of more than $207,000 and about $300,000 to the IRS, respectively.

As we pursue investigations similar to these, our agents also participate on about 45 SSN misuse
task forces throughout the country, which cover mortgage fraud, bankruptcy fraud, and
document and benefit fraud, as well as identity theft.

SSA’s Death Master File

SSA has made significant efforts to improve SSN integrity and encourage individuals to protect
PII. However, the SSNs of deceased individuals are also vulnerable to misuse. As such, the
public release of the DMF raises concerns related to SSN misuse and identity theft, as seen in
recent news media reports and evidenced by ongoing legislative efforts. SSA has, on the
Numident—the Agency’s master database of SSN holders—a record of reported deaths. Because
of a Consent Judgment in a 1978 Freedom of Information Act (FOIA) lawsuit—Perholtz vs.
Ross—SSA was required as of 1980 to provide death records that included the SSN, the last
name, and the date of death of deceased number holders; the result was the creation of the DMF,
an extract of Numident data. SSA later expanded the DMF to include individuals’ first and
middle name, date of birth, residential state and zip code.

In November 2011, SSA made changes to the DMF. First, the Agency ceased providing the
decedent’s residential state and Zip code. In addition, SSA removed about 4.2 million State
records from the DMF, based on a provision in the Social Security Act prohibiting SSA from
disclosing death records the Agency receives through its contacts with the States, except in
limited circumstances.

Today, each DMF record usually includes the following: SSN, full name, date of birth, and date
of death. Therefore, even with SSA’s recent changes, the DMF still contains more information
                                               2
than required by the Consent Judgment in Perholtz. The file contains about 86 million records,
and it adds about 1.1 million records each year.

SSA provides the DMF to the Department of Commerce’s National Technical Information
Service (NTIS), a clearinghouse for scientific and technical information, which, in turn, sells the
DMF to public and private industries—government, financial, investigative, credit reporting, and
medical customers. Those customers use the data to verify death and prevent fraud, among other
uses. SSA also currently distributes all death information it maintains, including State death
records, under agreements with eight government agencies, including the IRS and the Centers for
Medicare & Medicaid Services. SSA provides this death information to the IRS weekly. SSA
also provides IRS a weekly file that includes the names and SSNs of newborns, as well as their
parents’ names and SSNs.

Criminal Use of Public Death Records

The DMF has important and productive uses. For example, medical researchers and hospitals
track former patients for their studies; investigative firms use the data to verify deaths related to
investigations; and pension funds, insurance companies, and government entities need to know if
they are sending payments to deceased individuals. In addition, the financial community and
Federal, State, and local governments can identify and prevent identity theft by running financial
and credit applications against the DMF. However, the form in which the DMF is currently
distributed provides opportunity for individuals to misuse SSNs and commit identity theft.

These OIG investigations show how individuals can use available death data to obtain SSNs and
commit fraud:

    In August 2010, we began investigating about 60 fraudulent retirement benefit claims
     that used the name, SSN, and date of birth of individuals who died decades ago. We
     determined that the PII used to file the fraudulent claims was available to the public
     through a genealogical website. The OIG and other law enforcement agencies identified
     suspects in the case and executed search and arrest warrants; however, the main suspect
     took his own life before he was taken into custody. His two accomplices, both relatives of
     his, were indicted and pled guilty to the charges. A judge sentenced the two individuals to
     20 months’ and 25 months’ incarceration followed by deportation from the U.S., and one
     was ordered to pay restitution of more than $145,000 to SSA.
    An OIG investigation of a Colorado man revealed that he employed individuals so he
     could obtain names and SSNs of long-deceased individuals from a genealogical website.
     The man then fabricated employment records and instructed others to use the obtained
     names and SSNs and false employment information to create fraudulent tax returns,
     which were submitted to the IRS online. To determine deceased individuals’ SSNs, the
     man said he compared data available from the public Internet site with a certain State’s
     death data. A judge sentenced the man to 46 months in prison for SSN misuse, making
     false claims, and wire fraud; and ordered him to pay more than $282,000 in restitution to
     the IRS.

                                                  3
       According to news media reports, in December 2011, this genealogical website said it
       would no longer display the Social Security information for anyone who has died in the
       last 10 years; the site also said it would place its Social Security Death Index behind a
       pay wall and only allow access to the index to family history researchers.
The Congress has recognized the seriousness of this issue, as current bills for consideration
address access to the DMF. In November 2011, Chairman Johnson and several members of the
Subcommittee on Social Security introduced the Keeping IDs Safe Act, which would end the sale
of the DMF. The bill would help protect the death data of all number holders. My office also
supports an exemption to the bill that would allow government and Federal law enforcement
agencies—like the OIG—to access the DMF to combat fraud.

Reviews and Recommendations

The OIG recognizes that limiting or discontinuing the DMF’s availability is ultimately a
legislative and policy decision for the Congress and SSA to make. Even so, my office has long
taken the position that to the extent possible, SSA should limit public access to the DMF that
required by law, and take all possible steps to ensure its accuracy. We have made several
recommendations to this effect.

Our March 2011 report, Follow-up: Personally Identifiable Information Made Available to the
Public via the Death Master File, examined whether SSA took corrective actions to address
recommendations we made in a June 2008 report on the DMF. In the June 2008 report, we
determined that, from January 2004 through April 2007, SSA’s publication of the DMF resulted
in the potential exposure of PII for more than 20,000 living individuals erroneously listed as
deceased on the DMF. In some cases, these individuals’ PII was still available for free viewing
on the Internet—on ancestry sites like genealogy.com and familysearch.org—at the time of our
report.

In the March 2011 report, we found SSA did not take actions on two of our recommendations.
SSA did not implement a delay in the release of DMF updates, as the Agency indicated that
public and private organizations rely on the DMF to combat fraud and identity theft. According
to SSA, those organizations must have immediate and up-to-date information to be effective. The
Agency also did not attempt to limit the amount of information included on the DMF, and it did
not explore alternatives to the inclusion of an individual’s full SSN, citing the Perholtz consent
judgment and potential litigation under FOIA. SSA added that a deceased individual does not
have a privacy interest, according to FOIA.

Our follow-up audit work indicated that between January 2008 and April 2010, SSA published at
least 35,000 living numberholders’ PII in the DMF. According to SSA, there are about 1,000
cases each month in which a living individual is mistakenly included in the DMF. SSA said that
when the Agency becomes aware it has posted a death report in error, SSA moves quickly to
correct the situation, and the Agency has not found evidence of past data misuse. However, we
remain concerned about these errors, because erroneous death entries can lead to benefit
termination and cause severe financial hardship and distress to affected individuals. We also
have concerns that DMF update files, some with the SSNs of living individuals, are a potential
                                                4
source of information that would be useful in perpetrating SSN misuse and identity theft. DMF
updates can reveal to potential criminals the PII of individuals who are still alive.

Legislative Efforts

We support the prior bipartisan legislative efforts of these Subcommittees to limit the use,
access, and display of the SSN in public and private sectors, and to increase penalties against
those who misuse SSNs. Most recently, the Subcommittee on Social Security introduced the
Social Security Number Privacy and Identity Theft Prevention Act of 2009. This legislation
included new criminal penalties for the misuse of SSNs; criminal penalties for SSA employees
who knowingly and fraudulently issue Social Security cards or SSNs; and enhanced penalties in
cases of terrorism, drug trafficking crimes, or prior offenses.

The legislation would also expand the types of activities that are subject to civil monetary
penalties (CMPs) and assessments under Section 1129 of the Social Security Act. Currently, an
individual who misuses an SSN is not subject to a CMP, except in cases related to the receipt of
Social Security benefits or Supplemental Security Income. The legislation would authorize the
imposition of CMPs and assessments for activities such as providing false information to obtain
an SSN, using an SSN fraudulently obtained, or counterfeiting an SSN.

The expanded use of the SSN in today’s society has made it a valuable commodity for criminals.
In addition to being a lynchpin for identity theft crimes, it also helps an individual assimilate into
our society, and in some instances, to avoid detection. The importance of SSN integrity to
prevent identity theft and ensure homeland security is universally recognized. Providing
enhanced, structured penalties is appropriate to reflect the vital importance of the SSN.

Citizens’ Accountability

While government agencies such as SSA have controls in place to protect the SSN and other
personal information, individuals must also take basic preventive steps to protect their own
information from improper use. We urge everyone to keep Social Security cards in a secure
place, shred personal documents, and be aware of phishing schemes, because no reputable
financial institution or company will ask for personal information like an SSN via the phone or
the Internet. It is also important to protect personal computers with a firewall and updated anti-
virus protection.

Additionally, we should all be judicious in giving out an SSN in business transactions, because
while it is required for some financial transactions, an SSN is not necessary for everyday
transactions, like applying for a gym membership. We can monitor our financial transactions and
regularly check our credit reports from the three major credit bureaus. Concerned citizens may
also contact SSA at 1-800-772-1213 if they suspect someone is using their SSN work purposes;
SSA will review work earnings to ensure its records are correct. Anyone who suspects identity
theft should report it to the FTC at 1-877-438-4338; and may need to contact the IRS to address
potential tax issues. By knowing how to protect ourselves, and actually taking these important
steps, we make life much more difficult for identity thieves.

                                                  5
Conclusion

SSA has a long history of protecting PII, and while current conditions may be the most
challenging yet, we are confident SSA will rise to the occasion and address the challenges of
today and tomorrow. Identify theft will undoubtedly persist for years to come, because of the
reliance on the SSN as a national identifier and advances in technology and communication.
Nevertheless, we are committed to ensuring that the information in SSA’s records remains safe
and secure.

While we support efforts to limit public access to this data through legislative or policy changes
(such as the Keeping IDs Safe Act), barring such changes, SSA should implement a risk-based
approach for distributing the DMF, and the Agency should limit the amount of information
included on the DMF. These actions would protect PII and reduce the potential for misuse and
abuse of SSNs and identity theft.

Our investigators are committed to pursuing SSN misuse and identity theft cases, and our
auditors will continue to offer recommendations to safeguard the SSN and prevent theft of
government funds. Finally, we will continue to provide information to your Subcommittees and
Agency decision-makers about this critically important issue. I thank you again for the
opportunity to speak with you today. I am happy to answer any questions.




                                                 6
